I




                                                                 OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

1                                                       CLOSEOUT MEMORANDUM

           Case Number* A

    I
                           A complainant1alleges that plagiarism or intellectual property theft o c c y e d in a
                   publication of NSF-supported re~earch.~    The complainant is concerned that the subject(s)
    I
    /I
                   reviewed her submission to a professional conference, and then later presented the idea from her
                   submitted work as their own. The complainant provided documents with highlighted sections of
                   text claimed to be identical. We compared the material; no duplications of words were found in
                   the two documents. The complainant was also concerned about ajl intellectual property issue in
                   the description of an encoding and timing algorithm. The complainant's and subject's
    !              approaches are similar but not identical. Based on past and ongoing work of the subjects, their
                                                                                                                         1
                   publication of the algorithm was logical and reasonable. Thus, the general similarity does not
                   support an allegation of plagiarism or intellectual property theft. In summary, assessment of the
                   documents shows that there is no substance to the allegation of plagiarism or intellectual property
    I
                             Accordingly, this case is closed.


    i


     I

     I


     I

     1I
      I



          NSF OIG Form 2 (1 1/02)
